                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     EPA Can Better Document
                     Resolution of Ethics and
                     Partiality Concerns in Managing
                     Clean Air Federal Advisory
                     Committees

                     Report No. 13-P-0387               September 11, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Rick Beusse
                                                   James Hatfield
                                                   Rich Jones
                                                   Alicia Mariscal
                                                   Michael Young

Abbreviations

CAA           Clean Air Act
CASAC         Clean Air Scientific Advisory Committee
CFR           Code of Federal Regulations
Council       Advisory Council on Clean Air Compliance Analysis
DAEO          Designated Agency Ethics Official
DEO           Deputy Ethics Official
DFO           Designated Federal Officer
EPA           U.S. Environmental Protection Agency
FAC           Federal Advisory Committee
FACA          Federal Advisory Committee Act
FY            Fiscal Year
GAO           U.S. Government Accountability Office
GSA           U.S. General Services Administration
ISA           Integrated Science Assessment
ISI           Influential Scientific Information
NAAQS         National Ambient Air Quality Standards
NCEA          National Center for Environmental Assessment
NO2           Nitrogen Dioxide
OAQPS         Office of Air Quality Planning and Standards
OFACMO        Office of Federal Advisory Committee Management and Outreach
OIG           Office of Inspector General
OMB           Office of Management and Budget
ORD           Office of Research and Development
PM            Particulate Matter
PPM           Parts Per Million
SAB           Science Advisory Board
SGE           Special Government Employee
SO2           Sulfur Dioxide



  Hotline 

  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               13-P-0387
                                                                                                     September 11, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review                  EPA Can Better Document Resolution of Ethics and Partiality 

                                        Concerns in Managing Clean Air Federal Advisory Committees 

The U.S. Environmental
Protection Agency Office of              What We Found
Inspector General conducted this
                                        In general, the EPA managed the CASAC and Council in accordance with
review in response to a
congressional request about the         applicable statutes and regulations. These regulations allow agencies discretion
EPA’s management of the Clean           in choosing federal advisory committee members and achieving balance.
Air Scientific Advisory Committee
and the Advisory Council on             We reviewed 47 CASAC and Council member appointments, including all
                                        ozone panel appointments for the last two ozone standard reviews. We found
Clean Air Compliance Analysis.
We sought to determine whether          that the EPA has adequate procedures for identifying potential ethics concerns,
the EPA has managed the                 including financial conflicts of interest, independence issues and appearances
                                        of a lack of impartiality. However, the EPA can better document its decisions on
CASAC and Council in
accordance with applicable laws,        selecting members with independence and partiality concerns. This would allow
regulations and guidance                for better transparency, thus giving assurance that CASAC and the Council
                                        provide independent and objective advice to the Administrator on such
pertaining to (1) potential conflicts
of interest, (2) appearances of a       important decisions as setting ambient air standards. We also identified one
lack of impartiality, (3) rotation of   instance where agency procedures involving a potential conflict of interest were
members (i.e., term limits),            not followed.
(4) balance of committee
viewpoints and perspectives and         We also reviewed the peer review process for three EPA-developed analyses
(5) peer review. The EPA’s              included in scientific assessments peer reviewed by the CASAC. Peer review
Science Advisory Board Staff            is one method for enhancing the quality and credibility of the government’s
Office manages the CASAC and            scientific information. One of these analyses was not peer reviewed in
Council, which provide advice to        accordance with Office of Management and Budget and agency guidance.
the EPA on setting air quality          The EPA’s National Center for Environmental Assessment did not have a
standards and in developing             formal process for determining whether such analyses were subject to OMB
cost-benefit analyses of the            requirements and the EPA’s peer review guidance before public dissemination.
Clean Air Act.
                                         Recommendations and Planned Corrective Actions
This report addresses the               We recommend that the EPA instruct staff on the proper process for addressing
following EPA Goals or                  potential conflicts of interest, develop procedures to document decisions and
Cross-Cutting Strategies:               mitigating actions regarding independence and partiality concerns, and
                                        implement a process to determine whether its scientific work products are
 Taking action on climate and          influential scientific information that require peer review in accordance with
  improving air quality.                OMB and the EPA’s guidance. The agency completed corrective action for one
 Advancing science, research,          recommendation and that recommendation is closed. The agency agreed with
  and technological innovation.         three other recommendations and provided corrective action plans that we
                                        accepted. The agency disagreed with one recommendation but proposed an
For further information, contact        alternative action that we accepted. Thus, four recommendations are resolved
our Office of Congressional and         but open pending completion of the corrective actions.
Public Affairs at (202) 566-2391.
                                         Noteworthy Achievements
The full report is at:
www.epa.gov/oig/reports/2013/           Although not required, the EPA applies many Federal Advisory Committee Act
20130911-13-P-0387.pdf                  guidelines and procedures to managing subcommittees and panels.
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                      WASHINGTON, D.C. 20460



                                                                                     THE INSPECTOR GENERAL



                                           September 11, 2013

MEMORANDUM

SUBJECT:       EPA Can Better Document Resolution of Ethics and Partiality Concerns in
               Managing Clean Air Federal Advisory Committees
               Report No. 13-P-0387

FROM:          Arthur A. Elkins Jr.

TO:            Lek Kadeli, Principal Deputy Assistant Administrator
               Office of Research and Development

               Avi Garbow, General Counsel
               Office of General Counsel

               Christopher Zarba, Director
               Science Advisory Board Staff Office

This is our final report on the management of Clean Air Act federal advisory committees conducted by
the Office of Inspector General of the U.S. Environmental Protection Agency. This report contains
findings that describe the problems the OIG has identified and corrective actions the OIG recommends.
This report presents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

The agency agreed with recommendation 1 and provided evidence of corrective action taken. This
recommendation is closed and no further action is required. The agency agreed with recommendations
2, 3 and 5 and provided planned corrective actions and completion dates that meet the intent of these
recommendations. The agency disagreed with recommendation 4 but provided an alternative action that
we accepted. Therefore, the agency is not required to provide a written response for these four
recommendations, which remain open with corrective actions ongoing. For these recommendations,
please update the EPA’s Management Audit Tracking System as you complete the planned corrective
actions. Please notify my staff if there is a significant change in the agreed-to corrective actions.
We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Assistant Inspector General
for Program Evaluation Carolyn Copper at (202) 566-0829 or copper.carolyn@epa.gov, or Director for
Air Evaluations Rick Beusse at (919) 541-5747 or beusse.rick@epa.gov.
EPA Can Better Document Resolution of Ethics and Partiality                                                                 13-P-0387
Concerns In Managing Clean Air Federal Advisory Committees


                                  Table of Contents 


Chapters
   1    Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Prior Audit Reports ......................................................................................         5     

                Noteworthy Achievements ...........................................................................                6     

                Scope and Methodology ..............................................................................               6     


   2    Financial Conflicts of Interest ...........................................................................                8


                SGEs Are Generally Subject to Federal Statutes and Regulations
                   Governing Financial Interests ................................................................                  8

                The EPA’s Process for Identifying Conflicts of Interest ...............................                            9

                Receipt of Federal Grant Is Not a Financial Conflict of Interest ..................                                9

                Review of Financial Conflict of Interest Procedures ....................................                          10 

                Conclusions .................................................................................................     10     

                Recommendation ........................................................................................           10     

                Agency Comments and OIG Evaluation ......................................................                         10 


   3    Independence and Impartiality..........................................................................                   12 


                The EPA’s Guidance Recommends Avoiding Experts Who
                   Appear to Lack Impartiality ...................................................................                12 

                The EPA’s Financial Disclosure Forms Include Questions to Identify
                   Independence Concerns and Appearances of a Lack of Impartiality ....                                           13 

                The EPA Can Better Document Identification and Resolution of
                   Independence and Impartiality Concerns ..............................................                          14 

                SAB Staff Office Does Not Treat Viewpoints Expressed as Part of
                   Committee Functions as Appearance of a Lack of Impartiality .............                                      18 

                Procedures for Addressing and Documenting Resolution of Concerns
                   Raised During Disclosure Form Reviews Could be Strengthened ........                                           18 

                Conclusions .................................................................................................     19     

                Recommendations ......................................................................................            19     

                Agency Comments and OIG Evaluation ......................................................                         20 


   4    Membership Tenure ...........................................................................................             21 


                The EPA’s Policy Limits Committee Terms to 6 Years................................                                21 

                The EPA Followed Its Policy on Tenure ......................................................                      22 

                Many Members Served More than 6 Years If Service on
                   Review Panels Were Considered ..........................................................                       22 

                Conclusions .................................................................................................     23     



                                                          -continued-
EPA Can Better Document Resolution of Ethics and Partiality                                                                13-P-0387
Concerns In Managing Clean Air Federal Advisory Committees


   5    Committee Balance ............................................................................................           25 


                FACs Should be Fairly Balanced in Terms of Viewpoints
                   Represented and Functions Performed.................................................                          25 

                Preparation of Balance Plans Could Provide More Transparency to
                   Efforts to Achieve Balanced CASAC and Council Committees .............                                        26 

                New Agency Procedures Designed to Improve Diversity and Balance .......                                          27 

                Conclusions .................................................................................................    28     


   6    Peer Review ........................................................................................................     29 


                Federal and Agency Guidance Require Peer Review of Influential
                   Scientific Information Before Public Dissemination ...............................                            29 

                NCEA’s Review of One Analysis Did Not Adhere to OMB
                   Requirements and EPA Peer Review Guidance for
                   Influential Scientific Information .............................................................              30 

                NCEA Did Not Have a Process for Determining Whether
                   Internal Analyses Were Influential Scientific Information .......................                             33 

                Subsequent Peer Review Did Not Alter Overall Conclusions of
                   NCEA’s Ozone Reanalysis ....................................................................                  34 

                Conclusions .................................................................................................    34     

                Recommendation ........................................................................................          34     

                Agency Comments and OIG Evaluation ......................................................                        34 


   Status of Recommendations and Potential Monetary Benefits..............................                                       35




Appendices
   A    EPA Response to Draft Report .........................................................................                   36


   B    Distribution .........................................................................................................   42 

                                  Chapter 1

                                   Introduction
Purpose

            In response to a congressional request, our objective was to determine whether the
            U.S. Environmental Protection Agency has managed the Clean Air Scientific
            Advisory Committee and the Advisory Council on Clean Air Compliance Analysis
            in accordance with applicable laws, regulations and guidance pertaining to:

                  Potential conflicts of interest.

                  The appearances of a lack of impartiality. 

                  The rotation (i.e., term limits) of members. 

                  A balance of committee viewpoints and perspectives. 

                  Peer review.


Background
            Advisory committees have provided advice to the federal government since its
            inception. Congress enacted the Federal Advisory Committee Act in 1972 to
            address the use of federal advisory committees that had developed over the years.
            Congress had two major concerns with FACs before 1972. First was a public
            perception that many commissions were duplicative, inefficient, and lacked
            adequate controls or oversight. Second was a widespread belief that FACs did not
            adequately represent the public interest and that meetings were often closed to the
            public.

            FACA addressed these concerns by creating a process for establishing, operating,
            overseeing and terminating FACs. FACA requires that no FAC can meet or take
            any action until a charter has been filed with the head of the agency to whom the
            FAC reports and with the appropriate standing committees of the Senate and
            House of Representatives. FAC members appointed as Special Government
            Employees are subject to federal financial conflict of interest laws with some
            exceptions. FACA requires each agency sponsoring a FAC to appoint a
            committee management officer to oversee the administration of FACA’s
            requirements. Further, a designated federal officer must be assigned to each FAC
            to ensure compliance with FACA.

            FACA also required the administrator of the U.S. General Services
            Administration to prescribe administrative guidelines and management controls
            for FACs. Each federal agency head must establish administrative guidelines and
            management controls for FACs formed by its agency, consistent with the
            directives issued by GSA.



13-P-0387                                                                                     1
                Federal Advisory Committee Rule

                GSA’s rule1 on FAC management provides administrative and interpretative
                guidelines and management controls for federal agencies to implement FACA.
                The rule provides requirements for many aspects of managing a FAC. For
                example, the rule establishes requirements for FAC charters, recordkeeping and
                public notification. However, the rule allows for agency discretion in managing
                certain aspects of a FAC. For example, unless otherwise provided by statute or
                presidential directive, the length of FAC memberships is at the sole discretion
                of the appointing authority.

                The rule restates the FACA requirement that FACs be fairly balanced with
                respect to the points of view represented and function to be performed.
                However, the rule does not prescribe specific procedures for achieving balance.
                Instead, the rule provides factors for an agency to consider in developing a
                fairly balanced FAC.

                GSA’s rule does not prescribe procedures for addressing appearances of a lack
                of impartiality or peer review. However, the EPA has established procedures
                governing these and for balancing FAC member viewpoints, potential conflicts
                of interest, and rotation of members.

                The EPA’s FACA Management Process

                The EPA’s Office of Federal Advisory Committee Management and Outreach is
                the national program manager for the EPA’s committee management program.
                OFACMO provides policy, coordination, oversight, consultation, advice and
                technical assistance to FAC managers and the EPA’s senior officials. OFACMO
                has issued a handbook2 which provides the EPA’s administrative guidelines and
                management controls for FACs.

                The EPA’s key personnel for establishing and managing an FAC include the
                Administrator, the Deputy Administrator, the relevant program office’s assistant
                administrator, the committee management officer, and the designated federal
                officer. Table 1 shows FAC responsibilities of key agency officials.




1
  GSA Final Rule on Federal Advisory Committee Management, 41 CFR Parts 101-6 and 102-3.

2
  EPA Federal Advisory Committee Handbook, March 2012. The previous EPA Handbook was issued in October 

2003.
 


13-P-0387                                                                                                  2
            Table 1: FAC Responsibilities of key EPA officials

              EPA official                         Summary of FAC responsibilities

                              Responsible for the establishment, management and termination of the EPA’s
                              FACs. The Administrator has delegated most of these responsibilities to other
             Administrator    agency personnel but remains fully accountable for ensuring compliance with
                              the statutory and regulatory requirements of the FACs. The Administrator also
                              appoints FAC members and FAC subcommittee members.
                              Approves membership packages for FACs (authority delegated to the Deputy
               Deputy
                              Administrator by the Administrator). Approves establishment and renewal
             Administrator
                              charters for FACs.
                              Responsible for the request and justification of the establishment of proposed
                              FACs. The assistant administrator ensures that the FAC is balanced by points
               Assistant
                              of view for the function to be performed, appoints a DFO for each FAC, and
             Administrator
                              ensures that the FAC’s advice and recommendations are the result of the
                              FAC’s independent judgment.
                              Provides oversight for the establishment and operation of the EPA’s FACs.
               Committee
                              The committee management officer also serves as a resource for DFOs and
              Management
                              ensures proper recordkeeping for FACs (appointed by the director of
                Officer
                              OFACMO).
                              Responsible for the day-to-day operations and management of the FAC. The
              Designated
                              DFO works closely with the committee management officer to ensure full
               Federal
                              compliance with FACA requirements.
                Officer

            Source: Office of Inspector General-developed based on information in the EPA’s Federal Advisory
            Committee Handbook (2012).

            Clean Air Scientific Advisory Committee Created to Provide Advice
            on Ambient Air Quality Standards

            The Clean Air Act required the EPA to establish an independent scientific review
            committee to provide advice to the Administrator in developing criteria and
            standards for national ambient air quality. Thus, the EPA established the CASAC.
            The CASAC has seven members who provide advice on criteria and standards for
            six air pollutants. These pollutants are carbon monoxide, lead, nitrogen dioxide,
            ozone, particulate matter and sulfur dioxide.

            The CAA requires the EPA, with the assistance of CASAC, to review the criteria
            for the National Ambient Air Quality Standards every 5 years. The EPA augments
            CASAC with panels of expert consultants to help review the six pollutants. The
            review panels we examined generally included 16 consultants plus the seven
            CASAC members.

            Each panel reviews and comments on the supporting documentation for its
            specific pollutant. Prior to 2007, the two primary documents the panels reviewed
            were the criteria document and the staff white paper. The EPA’s Office of
            Research and Development prepared the criteria document. This document was a
            comprehensive and integrative assessment of relevant scientific studies related to
            the pollutant. The EPA’s Office of Air Quality Planning and Standards prepared
            the staff white paper. The staff used the information in ORD’s criteria document
            and the results of the EPA’s OAQPS risk and exposure assessments to develop



13-P-0387                                                                                                      3
                 and support their conclusions and recommendations for an air quality standard.
                 The OAQPS staff paper also included various ranges of standards for the
                 Administrator to consider.

                 The EPA revised its process for developing NAAQS in December 2006. The EPA
                 replaced the criteria document and the staff white paper with an integrated science
                 assessment, a risk/exposure assessment, and a policy assessment. The EPA also
                 decided it would publish the policy assessment in the Federal Register as an
                 Advanced Notice of Proposed Rulemaking. The revised process also called for
                 CASAC to be more involved in the initial planning for conducting the NAAQS
                 review. In May 2009, the EPA ended the requirement to publish the policy
                 assessment in an Advanced Notice of Proposed Rulemaking. Instead, the EPA
                 releases a draft of the policy assessment to CASAC and for public comment.
                 This policy assessment includes the air quality staff’s conclusions and
                 recommendations for a range of standards for senior agency management to
                 consider.

                 Advisory Council on Clean Air Compliance Analysis Created to
                 Provide Advice on Cost-Benefit Analyses

                 The Advisory Council on Clean Air Compliance Analysis was established in
                 1991, pursuant to the CAA Amendments of 1990. The Council’s purpose is to
                 review the data, methodology and findings of a statutorily mandated agency
                 report3 that assesses the costs and benefits of the CAA. The Council must include
                 at least nine members. The Council is to include experts in the fields of the health
                 and environmental effects of air pollution, economic analysis, and environmental
                 sciences. Members can also be appointed from other fields that the Administrator
                 determines to be appropriate.

                 As of July 2012, the Council included 15 members. The Council is supplemented
                 with subcommittees and consultants as needed. The Council has commented on
                 three CAA cost-benefit studies.4 In 2002, the agency requested the Council’s
                 assistance in planning a third study assessing the benefits and costs of the CAA
                 for the period 1990 through 2020. From 2004 through 2011, the Council issued
                 several reports providing advice to the agency with respect to the third study. This
                 included advice on planning the study and selecting data, methods and models,
                 and commenting on draft findings and conclusions. To review the study, the EPA
                 augmented the Council with the Special Council Panel, the Air Quality Modeling
                 Subcommittee, the Health Effects Subcommittee and the Ecological Effects
                 Subcommittee.

3
  This report was mandated by Section 812 of the CAA Amendments of 1990 but the requirement for the report to
Congress was repealed by the Federal Reports Elimination and Sunset Act of 1995 (P.L. 104-66).
4
  The Benefits and Costs of the Clean Air Act, 1970 to 1990, October 1997; The Benefits and Costs of the Clean Air
Act, 1990 to 2010, November 1999, EPA-410-R99-001; and The Benefits and Costs of the Clean Air Act from 1990
to 2020, March 2011. 



13-P-0387                                                                                                        4
                Science Advisory Board Staff Office Manages the CASAC and Council

                The EPA’s Science Advisory Board Staff Office manages the CASAC and the
                Council. The SAB Staff Office develops the required FAC documentation,
                including charters and membership packages. The SAB Staff Office also collects
                and reviews financial disclosure forms submitted by prospective SGEs. The SAB
                Staff Office director recommends members for the committees to the
                Administrator for approval. The SAB Staff Office director also has the authority
                to select expert consultants to assist the chartered FACs. These consultant
                appointments are not submitted to the Administrator for approval.

                All CASAC and Council committee, subcommittee and panel members are
                appointed to serve as SGEs, or in rare cases as regular government employees.
                As government employees, they are covered by federal ethics and conflicts of
                interest statutes and regulations. The SAB Staff Office director is also the agency
                deputy ethics official for the office. The DEO is responsible for reviewing and
                resolving ethics and conflicts of interest concerns with respect to members of the
                CASAC, the Council, and their respective subcommittees and panels.

Prior Audit Reports

                The OIG has not conducted any prior audits or evaluations of CASAC or Council
                activity, or of the EPA’s management of FACs. We reported on the EPA’s external
                peer review process in April 2009.5 Our 2009 report focused on contractor-
                developed peer review panels. In response to the report, the EPA developed an
                addendum to the Peer Review Handbook that provided additional guidance for
                identifying appearances of a lack of impartiality in any of the peer reviewers.

                The U.S. Government Accountability Office reported on FAC independence and
                balance in 2004.6 GAO’s report was based on a review of policies and practices at
                nine federal departments and agencies, including the EPA. According to the GAO
                report, GSA’s guidance on FAC management did not address what types of
                information could be helpful to agencies in assessing the points of view of potential
                FAC members. Additionally, agency procedures did not identify the type of
                information that should be collected about potential members to make decisions
                about FAC balance. Thus, eight of the nine departments and agencies that GAO
                reviewed did not identify and systematically collect and evaluate information
                pertinent to determining the points of view of potential FAC members. Such
                information would include previous public positions or statements on matters being
                reviewed. The EPA was the only agency to routinely collect and evaluate this
                information.

5
   EPA Can Improve Its Process for Establishing Peer Review Panels, EPA OIG Report No. 09-P-0147, April 29, 

2009.

6
   GAO-04-328, FEDERAL ADVISORY COMMITTEES: Additional Guidance Could Help Agencies Better Ensure

Independence and Balance, April 2004.
 


13-P-0387                                                                                                  5
Noteworthy Achievements

            FACA regulations do not apply to subcommittees or working groups that provide
            advice to the parent FAC. Still, the EPA applies many of its FACA guidelines and
            procedures when assembling these subcommittees and panels. That includes:

                  Requiring subcommittee and panel members designated as SGEs to
                   complete financial disclosure forms.
                  Reviewing and vetting these forms for financial conflicts of interest and
                   appearances of a lack of impartiality. 
                  Preparing membership grids showing each proposed member’s
                   qualifications and background. 

            The EPA’s revised Federal Advisory Committee Management Handbook
            incorporates new procedures and factors to consider in selecting FAC members.
            The Handbook now requires the EPA’s DFOs to prepare an outreach plan. This
            plan describes how the DFO plans to publicize the proposed FAC and solicit
            members from various groups to achieve FAC diversity.

Scope and Methodology

            Our evaluation assessed the EPA’s management of the CASAC and Council
            during the period 2006 through 2011, although we did review older records as
            necessary. In particular, we focused on management of CASAC’s ozone and
            PM panels, and the Council’s Health Effects Subcommittee. We evaluated the
            procedures the EPA used to ensure compliance with FACA and applicable
            federal and agency guidance. We did not evaluate the quality of scientific
            advice the CASAC or Council provided to the EPA.

            We performed our work at the EPA’s OFACMO, SAB Staff Office, and Office of
            General Counsel in Washington, D.C. We also conducted work at the ORD’s
            National Center for Environmental Assessment in Research Triangle Park,
            North Carolina. We interviewed the EPA staff and managers tasked with
            overseeing the EPA’s compliance with FACA, and obtained data and documents as
            appropriate. We also interviewed staff and managers responsible for managing the
            CASAC and Council.

            To assess the EPA’s management of the CASAC and Council we selected a
            sample of FAC, subcommittee and panel member appointments for review. Our
            selection criteria were all members of the last two NAAQS ozone panels, any
            expert who served on both the 2006 and 2011 PM review panels, and any expert
            specifically cited in the requester’s letters to the OIG. This represented 47 of 126
            members appointed during the period of fiscal years 1998 through 2012. We
            reviewed the SAB Staff Office case files for these 47 members for evidence of
            independence, impartiality, or financial conflicts of interest concerns. Based on
            potential concerns we identified during our initial file review, we reviewed 27 of


13-P-0387                                                                                          6
            these cases in depth. We also interviewed six CASAC members to obtain their
            views on membership balance.

            We conducted our evaluation from April 2012 through May 2013. We conducted
            this evaluation in accordance with generally accepted government auditing
            standards. Those standards require that we obtain sufficient, appropriate
            evidence to provide a reasonable basis for our findings and conclusions based on
            our objectives. We believe the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our objectives.




13-P-0387                                                                                      7
                                  Chapter 2

                   Financial Conflicts of Interest
            The EPA has implemented a process to manage the CASAC and Council in
            accordance with applicable laws, regulations and guidance regarding financial
            conflicts of interest. The EPA requires prospective and active SGEs to complete
            financial disclosure forms. The SAB Staff Office reviews these forms for
            financial conflicts of interest. We identified one instance where agency
            procedures involving a potential conflict of interest were not followed.

SGEs Are Generally Subject to Federal Statutes and Regulations
Governing Financial Interests
            Rules governing conflicts of interest for federal employees can be found in the
            Code of Federal Regulations. Specifically, 5 CFR Part 2635 Subpart D provides in
            part that:

                   An employee is prohibited by criminal statue, 18 U.S.C. 208(a),
                   from participating personally and substantially in an official
                   capacity in any particular matter in which, to his knowledge, he or
                   any person whose interests are imputed to him under this statute
                   has a financial interest, if the particular matter will have a direct
                   and predictable effect on that interest.

            SGEs are generally subject to financial conflict of interest provisions with some
            exceptions. In certain circumstances, SGEs who serve on FACs, within the
            meaning of the FACA, are uniquely eligible for a particular waiver of the
            prohibition of Section 208(a). Under 18 U.S.C. 208(b)(3), an SGE serving on a
            FAC may be eligible for a waiver where the official responsible for his or her
            appointment certifies in writing that the need for the SGE’s services outweighs
            the potential for a conflict of interest posed by the otherwise disqualifying
            financial interest involved. EPA Order 1000.28A states that only the designated
            agency ethics official or the alternate agency ethics official may issue such
            waivers. According to the EPA’s OGC, this should occur only upon consultation
            with the U.S. Office of Government Ethics.

            SGEs serving on FACs are also covered by certain exemptions from Section 208
            that have been promulgated by the U.S. Office of Government Ethics, pursuant to
            18 U.S.C. 208(b). The most significant of these is 5 CFR 2640.203(g), which
            pertains to certain financial interests arising from the SGE’s outside employment.
            This exemption permits SGEs serving on FACs to participate in matters of
            general applicability where the disqualifying interest arises from the SGE’s non-
            federal employment or prospective employment. This exemption is subject to the
            following limitations:


13-P-0387                                                                                       8
                        The matter cannot have a special or distinct effect on either the SGE or the
                         SGE’s non-federal employer, other than as part of a class.
                        The exemption does not cover interests arising from the ownership of
                         stock in the employer or prospective employer.

                Further, according to the EPA’s OGC the non-federal employment must involve
                an actual employee/employer relationship, as opposed to an independent
                contractor relationship.

The EPA’s Process for Identifying Conflicts of Interest
                The EPA requires prospective charter FAC, panel and subcommittee members to
                complete the EPA’s Form 3110-48.7 Active members must also update their forms
                annually as well as before any particular matter is considered by a given member.
                The form includes sections for listing employment and consulting work, paid
                expert testimony, research or project funding for the past 2 years, and assets. The
                form also includes a section for describing prior activities or statements that could
                affect, or appear to affect, an expert’s ability to provide impartial advice.

                The SAB Staff Office’s ethics officer (assistant to the SAB Staff Office DEO) and
                the SAB Staff Office DEO review each active or prospective member’s financial
                disclosure form for potential ethical issues, including financial and other conflicts,
                and possible lack of impartiality. Both reviewers sign and date the first page of
                the form to document their review. The forms may include the reviewer’s
                handwritten notes if issues are noted.

                If the review identifies potential issues, the SAB Staff Office informs the
                prospective or active member and asks for an explanation. The SAB Staff Office
                may also discuss any concerns with the member and require that the member take
                action to mitigate the concern. The SAB Staff Office director’s personal practice
                was to not grant financial conflict of interest waivers. We did not identify any
                waivers for financial conflicts of interest for the 47 CASAC and Council charter,
                subcommittee and panel members we reviewed from FYs 2002 through 2012.

Receipt of Federal Grant Is Not a Financial Conflict of Interest
                The EPA does not consider a prospective or current member’s receipt of an
                agency or other federal research grant to create the basis for a financial conflict of
                interest. This is consistent with other federal guidance in this area. For example,
                OMB’s Final Bulletin on Peer Review states that:

                         When an agency awards grants through a competitive process that
                         includes peer review, the agency’s potential to influence the
                         scientist’s research is limited. As such, when a scientist is awarded

7
 Confidential Financial Disclosure Form for Special Government Employees Serving on Federal Advisory
Committees at the U.S. Environmental Protection Agency (EPA Form 3110-48). 


13-P-0387                                                                                              9
                   a government research grant through an investigator-initiated,
                   peer-reviewed competition, there generally should be no question
                   as to that scientist’s ability to offer independent scientific advice to
                   the agency on other projects.

            The above guidance does not mean that a prospective or active member’s work on
            a specific grant or research project could not potentially present an independence
            concern. A prospective or active member’s research or grant is a potential area of
            concern if the FAC, panel, or subcommittee plans to address work performed
            under the research grant. Prospective and active EPA SGE members must report
            any research grants received during the past 2 years in Section 4 of the EPA’s
            Form 3110-48. Our review of impartiality and independence is discussed in
            chapter 3.

Review of Financial Conflict of Interest Procedures
            We reviewed 47 financial disclosure forms completed by prospective CASAC and
            Council committee, panel and subcommittee members from 2002 through 2012.
            We identified one instance where agency procedures regarding a potential conflict
            of interest were not followed.

Conclusions
            The EPA has adequate procedures for identifying financial conflicts of interest.
            Nonetheless, we identified one instance where the agency’s procedures for
            handling a potential conflict of interest were not followed. As such, we believe the
            agency should remind DEOs of the proper procedures for addressing potential
            conflicts of interest to prevent any future occurrences.

            While receipt of grant funds from the EPA may not constitute a financial conflict of
            interest on the part of a FACA member, receipt of such funding could raise
            concerns of independence depending upon the nature of the research conducted
            under the grant and the issues addressed by the FAC.

Recommendation
            We recommend that the EPA designated agency ethics official:

               1. 	 Instruct DEOs and assistant DEOs on the proper process for handling
                    potential conflicts of interests for SGEs, including the process for
                    implementing any applicable steps to remedy the conflicts of interest.

Agency Comments and OIG Evaluation
            The agency agreed with our recommendation and responded that the DAEO will
            review already available reference material and guidance to determine whether


13-P-0387                                                                                     10
            any additional guidance is warranted for SGEs. Further, the agency provided us
            with documentation that the DAEO has instructed DEOs on the proper process to
            follow in addressing conflicts of interest. Thus, this recommendation is closed and
            no further response is required from the agency.




13-P-0387                                                                                   11
                                  Chapter 3

                  Independence and Impartiality
            In general, the EPA has implemented an adequate process to identify
            independence and impartiality concerns. However, the EPA can improve its
            controls over this process by better documenting how it addressed concerns
            identified during the financial disclosure review process. We reviewed financial
            disclosure forms and associated SAB Staff Office files for 47 members from
            FYs 2002 through 2012. In nine instances, final determination on and steps
            taken to mitigate independence or partiality matters were either not adequately
            documented or, in our view, needed additional steps to sufficiently address
            potential independence or partiality concerns. Better documentation of ethics
            decisions will help ensure that the FAC process is transparent and that advice to
            the Administrator on important issues such as setting ambient air standards to
            protect public health and the environment is impartial and objective.

The EPA’s Guidance Recommends Avoiding Experts Who
Appear to Lack Impartiality
            FACA requires that FACs provide independent advice free of inappropriate
            influence from the appointing authority or special interests. FACA does not
            establish requirements for reviewing the independence or impartiality of FAC
            members. However, SGEs are subject to federal ethics regulations and should
            avoid appearances of a lack of impartiality in performing their work. Title 5 CFR
            Part 2635.502(a) in large part addresses impartiality with respect to particular
            matters involving specific parties. Since the CASAC and Council address matters
            of general applicability this provision would not normally apply to CASAC and
            Council members. However, 5 CFR Part 2635.502(a)(2) addresses impartiality
            concerns that may arise under other circumstances. It states that:

                   An employee who is concerned that circumstances other than those
                   specifically described in this section would raise a question
                   regarding his impartiality should use the process described in this
                   section to determine whether he should or should not participate in
                   a particular matter.

            Based on 5 CFR 2635.502 (c) and (d), EPA Order 1000.28A authorizes DEOs to
            make determinations as to whether a reasonable person would be likely to
            question the employee’s impartiality in a particular matter under 5 CFR Part
            2635, Subpart E. In instances where impartiality is likely to be questioned, but
            would not violate 18 USC 208(a), the Order further authorizes DEOs to determine
            whether the employee should be allowed to participate in the matter, and if so,
            authorize participation in writing.



13-P-0387                                                                                       12
                 The EPA’s Peer Review Handbook provides guidance for how the EPA should
                 address impartiality and independence concerns on peer review panels. The
                 Handbook states that the EPA should make every effort to use reviewers who are
                 independent and do not have an appearance of a lack of impartiality. The Handbook
                 states, as a general rule, experts who have made public pronouncements on an issue
                 or who have clearly “taken sides” may lack impartiality and should be avoided. The
                 Handbook recognizes that these reviewers with appearances of a lack of impartiality
                 may still serve on a panel to fill the need for experience or technical balance and
                 representation. For example, if an SGE has an appearance of a lack of impartiality, it
                 may still be possible to make a written determination that the SGE may serve on the
                 FAC or to ensure that the SGE is recused from certain areas of a review. With
                 respect to impartiality, the Handbook states:

                           . . . it is also important that any decision that is made concerning
                           advisory committee members or peer reviewers be appropriately
                           documented. . . .

                 The Peer Review Handbook defines an independent reviewer as an expert who
                 was not associated with developing the work product, either directly by
                 substantial contribution to its development or indirectly by significant
                 consultation during its development.

The EPA’s Financial Disclosure Forms Include Questions to Identify
Independence Concerns and Appearances of a Lack of Impartiality
                 As discussed in chapter 2, the EPA requires FAC committee, subcommittee and
                 panel candidates who are designated as SGEs to complete EPA Form 3110-48.
                 Once selected, members must also periodically update their form. The form
                 includes a supplemental set of questions specifically designed to help the EPA
                 identify any potential appearance of a lack of impartiality (table 2).

Table 2: Supplemental questions to identify concerns with independence and impartiality

 No.                                                   Questions asked

        Do you know of any reason that you might be unable to provide impartial advice on the matter to come before
  1
        the panel/committee/subcommittee or any reason that your impartiality in the matter might be questioned?
        Have you had any previous involvement with the review document(s) under consideration including
  2     authorship, collaboration with the authors, or previous peer review functions? If so, please identify and
        describe that involvement.
        Have you served on previous advisory panels, committees or subcommittees that have addressed the topic
  3
        under consideration? If so, please identify those activities.
        Have you made any public statements (written or oral) on the issue that would indicate to an observer that you
  4
        have taken a position on the issue under consideration? If so, please identify those statements.
Source: OIG-developed table based on section 6 of EPA Form 3110-48.




13-P-0387                                                                                                           13
The EPA Can Better Document Identification and Resolution of
Independence and Impartiality Concerns
            We reviewed the SAB Staff Office’s files for 47 of the 126 SGE appointments to
            CASAC and the Council, including subcommittees and review panels, over the
            period of FYs 1998 through 2012. We reviewed 27 appointments in greater detail
            based on information in the case files that in our opinion indicated the SGE’s
            appointment might raise ethical concerns with respect to the FAC’s or panel’s
            work. We also reviewed the meeting minutes for 14 Council meetings held
            between 2003 and 2010. We found:

                	 Four instances where recusals for independence concerns were not
                   documented or came after the expert had participated in activities related
                   to the concern. 
             
                	 Three instances where, in our view, potential independence concerns were
                   not identified or their resolution was not adequately documented.

                	 Two instances where, in our view, potential appearances of a lack of
                   impartiality were not identified or adequately resolved.
            The following sections discuss in more detail the results of our review.

            Some Recusals Were Not Documented or Came After SGE
            Participation in Activities That Created an Independence Concern

            The SAB Staff Office determined that four members of the chartered Council
            should recuse themselves from certain meetings where the charge questions were
            related to work these members had produced. SAB Staff Office procedures state
            that the DFO should start each meeting by stating for the record that all
            participating panel members are in compliance with ethics and conflict of interest
            rules. If not, the DFO should note any instances where a member will recuse
            him/herself from discussion on a particular aspect of the meeting. The EPA’s
            FAC Handbook also recommends that meeting minutes document all recusals.

                	 In two instances, the EPA appointed experts as members to the chartered
                   Council who had co-authored studies that the EPA used to support
                   conclusions in the EPA’s CAA Section 812 cost benefit analysis. These
                   studies pertained to the monetized benefit of reducing ozone and PM
                   mortality. The DFO told us they orally instructed members to recuse
                   themselves from any meeting where charge questions related to the
                   application of their work in the Section 812 study were discussed.
                   However, the meeting minutes did not state whether these two members
                   recused themselves from meetings where the charge questions related to
                   their work.




13-P-0387                                                                                   14
               	 In one instance, a potential independence concern about a Council
                  member was raised and discussed at a Council meeting. The concern was
                  that the member was one of five experts selected to serve on a pilot expert
                  elicitation study panel on PM mortality. The Council was asked to review
                  the design of the pilot study. Because of the information discussed at this
                  meeting, the DFO sent a written notice to the member instructing him to
                  recuse himself from meetings where his prior work on the pilot elicitation
                  study was to be discussed. Meeting minutes we reviewed indicate that this
                  member recused himself from applicable meetings after receiving SAB’s
                  notice for a period of several years. The member later served as one of 12
                  participants in the full-scale expert elicitation study. According to the SAB
                  Staff Office, when the Council met in 2008 to advise the agency on the
                  potential use and presentation of expert elicitation study results, the
                  member did not participate in the meeting. However, 6 years after the
                  initial independence issue arose, this member attended a meeting as a
                  member of the Council’s Health Effects Subcommittee where the
                  interpretation and presentation of the results of the elicitation study were
                  discussed. Meeting minutes did not indicate whether this member recused
                  himself from discussing the EPA’s application of the results of the study
                  he had worked on.

               	 In one instance, a Council member had contributed significantly to a
                  product peer reviewed by the Council. Both the member and the SAB
                  Staff Office identified this member’s participation as an independence
                  concern. The SAB Staff Office director noted that the member would be
                  required to recuse himself from any discussion of that portion of the
                  document. The meeting minutes for two Council subcommittee meetings
                  did not indicate whether this member recused himself from any portion of
                  the deliberations. A draft peer review report was prepared after these two
                  meetings. Prior to a third meeting where this topic was discussed, the DFO
                  sent the member a written recusal reminder notice. Meeting minutes we
                  reviewed indicated the member recused himself from meetings after
                  receiving the written recusal notice.

            Some Potential Independence Concerns Were Not Identified

            We identified three instances where the SAB Staff Office appointed experts to
            panels that reviewed work products that the experts had helped develop or
            incorporated extensive information from work products the experts had
            developed. In all three instances, the experts reported their involvement in these
            precursor work products on EPA Form 3110-48.

               	 In two instances, experts appointed to a CASAC review panel had
                  participated substantially in preparing chapters included in ORD’s ozone
                  and PM criteria documents for the prior review period. These members
                  were allowed to serve as reviewers for the next 5-year review’s criteria


13-P-0387                                                                                        15
                         document. The SAB Staff Office director told us that these members were
                         allowed to serve because they had not worked on producing the document
                         under review by the CASAC. However, our review of the integrated science
                         assessments (formerly known as criteria documents) found that these work
                         products included conclusions and information from the chapters that had
                         been written by the experts for the prior criteria documents. Further, the
                         charge questions for the ISA reviews included commenting on the
                         usefulness and completeness of the scientific information in chapters that
                         included information from these experts’ prior work. Thus, even though
                         these experts did not develop the ISA documents, in our view, their service
                         on the panels created a risk that they could potentially review their own
                         work. Further, the agency should document in writing its determination that
                         the expert’s service will not create an independence concern and any steps
                         needed to reduce the risk that this could occur.

                     	 In one instance, an expert selected to serve on the Council’s Health Effects
                        Subcommittee was a member of the project team that developed the
                        methodology for both the pilot and later full-scale expert elicitations. This
                        member also interviewed experts for the elicitation study. This member’s
                        participation in the expert elicitation studies was noted at a Council
                        meeting. Later, this member attended at least two meetings where the
                        Health Effects Subcommittee charge included interpretation and
                        presentation of the results of the pilot expert elicitation study for the
                        section 812 cost-benefit analysis. The meeting minutes did not record any
                        recusals from the member. We found no indication in the SAB case file
                        that the SAB Staff Office identified this as a potential independence issue.
                        In our view, this member indirectly participated in the work product being
                        reviewed based on his significant consultation during its development. We
                        concluded that such participation does not meet the definition of an
                        independent reviewer as described in the EPA’s Peer Review Handbook.
                 Appearances of a Lack of Impartiality Not Identified or Adequately
                 Resolved

                 The Peer Review Handbook states that, as a general rule, “. . . experts who have
                 made public pronouncements or have had a predominant influence on the position for
                 a given organization on an issue, those who have clearly "taken sides," may have an
                 appearance of a lack of impartiality.” We reviewed two instances where experts had
                 expressed public viewpoints on NAAQS standards but were appointed to serve on
                 the CASAC or one of its panels.

                     	 The requester questioned the appointment of a CASAC member who had
                        co-authored an article8 in 2006 opposing the EPA’s PM standard and was
                        later appointed chair of the PM review panel. This member’s case file

8
 William N. Rom and Jonathan M. Samet, "Small Particles with Big Effects," 173 Am. J. Resp. & Crit. Care Med.
365, 366 (2006).  


13-P-0387                                                                                                  16
               included a bibliography of publications that included the article in
               question. However, the member did not list this article in section 6 of the
               disclosure forms we reviewed, and the EPA’s notes to the file did not
               include any discussion regarding this article. The article made the
               following conclusion about the PM standard:
                       In the face of the extensive evidence on PM and health and
                       the strong mandate of the Clean Air Act for public health
                       protection, the PM NAAQS proposed by Administrator
                       Johnson appear lax. Based on the same evidence, the
                       American Thoracic Society and other health organizations
                       have recommended 12 and 25 μg/m3 for the average annual
                       and 24-h PM2.5 standards, respectively. The proposed, less
                       stringent standard does not protect the nation's health, as
                       required by the Clean Air Act.

               In our view, the above statement presents an appearance of a lack of
               impartiality based on guidance in the Peer Review Handbook. This
               guidance states that, generally, experts who have made a public
               pronouncement on an issue should be avoided. This expert served as a
               consultant on the PM review panel that advised the Administrator on the
               2006 proposed and final PM standard. This expert was later appointed to
               the CASAC and the next 5-year PM review panel in 2007. While public
               statements expressing an opinion would not automatically disqualify a
               member, we believe that the SAB Staff Office, if aware of this article,
               should have prepared a written determination justifying the selection.
               We noted that the case file did include documentation of the SAB Staff
               Office’s resolution of potential concerns with respect to an article the
               expert had co-authored in 2004. According to notes in the case file, the
               SAB Staff Office intended to remind the expert to list such articles in
               section 6 of his disclosure form.

            
 In the remaining instance, a nitrogen oxide/sulfur oxide review panel
               member reported on his disclosure form that he had made statements at
               scientific meetings and in classrooms that the body of epidemiological
               evidence warranted consideration of a lower nitrogen oxide standard. The
               SAB Staff Office initially flagged this as a potential appearance of a lack
               of impartiality. However, the Staff Office later noted in the case file that
               there was not an appearance of a lack of impartiality since the member
               stated that he had not made these statements while serving on the panel
               during the past year. Guidance in the EPA’s Peer Review Handbook does
               not limit statements that could create the appearance of a lack of
               impartiality to those only made while serving on a panel. In our view,
               refraining from making public statements on a topic while on the panel
               does not mitigate any appearances created by making public statements
               prior to an expert’s appointment to the panel.


13-P-0387                                                                                 17
SAB Staff Office Does Not Treat Viewpoints Expressed as Part of
Committee Functions as Appearance of a Lack of Impartiality
            The requester raised concerns about two letters from CASAC members to the
            EPA Administrator. These letters encouraged the EPA Administrator to set the
            NAAQS at the levels CASAC had recommended following its review of the
            supporting technical documents and proposed standards. Many of the members
            who signed these letters were later re-appointed to the CASAC review panels that
            convened for the next 5-year NAAQS review cycle. The requestor expressed
            concerns that these members had an appearance of a lack of impartiality based on
            their publicly expressed viewpoints.

            The SAB Staff Office director told us that her office distinguishes between
            viewpoints expressed outside of the FAC’s activities and those expressed as part
            of the FAC’s chartered function to provide advice to the Administrator. She
            considered these letters to be a normal part of the FAC’s advice function and did
            not consider the viewpoints expressed to be appearances of a lack of impartiality
            that would affect the member’s future service. However, she noted that if a panel
            member were to express a personal viewpoint outside of the FAC process, this
            could potentially present the appearance of a lack of impartiality. For opinions
            voiced outside of the member’s FAC duties, the director told us that an expert
            must advocate a specific NAAQS level for the SAB Staff Office to consider it a
            viewpoint that would present the appearance of a lack of impartiality. According
            to the agency’s alternate agency ethics official, she would instruct the CASAC
            after they have made their final communications to the Administrator to make any
            further communications through the DFO.

Procedures for Addressing and Documenting Resolution of Concerns
Raised During Disclosure Form Reviews Could be Strengthened
            The SAB Staff Office procedures include documenting any relevant
            correspondence between the file reviewer and the active or potential member
            regarding ethics questions. Further, these procedures state that the DFO should
            start each meeting by stating for the record that all participating panel members
            are in compliance with ethics and conflict of interest rules. If not, the DFO should
            note any instances where a member will recuse him/herself from discussion on a
            particular aspect of the meeting.

            SAB Staff Office procedures do not address making written determinations when
            members with ethical concerns are allowed to serve. The EPA’s Peer Review
            Handbook states that written determination should be made when SGEs with the
            appearance of a lack of impartiality are allowed to serve on FACs. Further, EPA
            Order 1000.28.A, Duties of EPA Ethics Officials, states that DEOs are authorized
            to:




13-P-0387                                                                                     18
                   When informed by an employee of an impartiality issue under
                   5 CFR Part 2635, Subpart E, or when requested by the employee’s
                   supervisor or other person responsible for the employee’s
                   assignment, make determinations as to whether a reasonable
                   person would be likely to question the employee’s impartiality in a
                   particular matter. If impartiality is likely to be questioned,
                   determine whether the employee should be allowed to participate
                   in the matter, and if so, authorize participation in writing
                   [5 CFR § 2635.502(c) and (d)].

            In general, the files we reviewed contained handwritten notes, typed notes to the
            file, emails, or other documentation pertaining to concerns that arose during the
            review. However, in some cases the files did not contain the SAB Staff Office’s
            final determination explaining how potential issues they identified were resolved.
            We needed additional oral explanation from SAB staff to ascertain how the Staff
            Office resolved these cases and the reasoning behind those determinations.
            Further, the meeting minutes we reviewed did not contain a record of the DFO’s
            statements on recusals when the SAB Staff Office had recommended recusals.

Conclusions
            The SAB Staff Office has adequate procedures for identifying independence and
            impartiality concerns. However, SAB’s final determinations and evidence that
            mitigating measures were implemented were not always documented in the files
            we reviewed. Such documentation will better ensure that the FAC process is
            transparent and the advice from FACs is impartial. When experts with
            independence or impartiality concerns are allowed to serve on FACs without
            sufficient written justification it can potentially undermine the credibility of:
            (1) the FAC’s advice, (2) the agency’s scientific and technical documents, and
            (3) the corresponding regulations issued by the agency.

Recommendations
            We recommend that the director, Science Advisory Board Staff Office:

               2. 	 Develop procedures to adequately document the resolution of ethical
                    concerns. This should include:

                       a.	 Preparing written determinations as to why members with
                           independence concerns or the appearance of a lack of impartiality
                           are allowed to serve on FACs, subcommittees and panels,
                           including any steps recommended for mitigating these concerns or
                           appearances.

                       b.	 Documenting that all recommended steps for mitigating independence
                           concerns, such as recusals from certain meetings, are implemented.


13-P-0387                                                                                   19
            We recommend that the EPA designated agency ethics official:

               3. 	 Periodically review the SAB Staff Office’s resolution of independence
                    concerns and appearances of a lack of impartiality, including the
                    sufficiency of recordkeeping documentation, and recommend corrective
                    actions to the SAB Staff Office as appropriate.

            We recommend that the director, Science Advisory Board Staff Office:

               4.	 Develop a framework to guide decisions regarding public pronouncements
                   made by current or prospective FAC members related to topics under
                   consideration by the FAC.

Agency Comments and OIG Evaluation
            The agency agreed with recommendations 2 and 3, and provided a corrective
            action plan and milestones that meet the intent of these recommendations. The
            agency did not agree with recommendation 4 and offered an alternative corrective
            action. The agency responded that public pronouncements did not fall under the
            purview of federal ethics regulations since they were not “covered relationships”
            and that the SAB typically deals with matters of general applicability, not
            “specific party” matters. We interpreted 5 CFR Part 2635.502(a)(2), which
            addresses impartiality concerns that may arise under other circumstances not
            described in that section, as potentially applying to particular matters of general
            applicability. However, we believe the SAB Staff Office’s proposal to develop a
            framework to guide decisions regarding public pronouncements by current or
            prospective FAC members will be an appropriate management control. As such,
            the agency’s proposed alternative action meets the intent of the draft report’s
            recommendation. Thus, we revised our recommendation to reflect the agency’s
            proposed alternative corrective action. All three recommendations are resolved
            and open pending the agency’s completion of the agreed-to corrective actions.




13-P-0387                                                                                    20
                                  Chapter 4

                            Membership Tenure
            The EPA’s policy on tenure generally limits FAC members to 6 years of service,
            with any service over 6 years based on written justification from the program
            office and approval by the Administrator or Deputy Administrator. The EPA
            generally followed this policy in its management of the CASAC and Council.
            In three instances prior to 2010, EPA approved FAC chairs to serve more than
            6 years based on written justification submitted to the Administrator. Beginning in
            FY 2010 under former Administrator Jackson’s term (2009-2013), the EPA has
            more strictly limited the granting of extensions for service more than 6 years.

            The EPA’s policy on tenure does not apply to review panel or subcommittee
            memberships. From FYs 1998 through 2012, 36 percent of all CASAC
            members/consultants served more than 6 years as a charter CASAC member or
            review panel consultant. During the same period, 12 percent of all Council
            members/consultants served more than 6 years as a Council charter member, or
            review panel or subcommittee consultant. By not applying its membership policy
            to review panels and subcommittees, the EPA may be not be achieving the
            policy’s intent of providing fresh perspectives to its FACs.

The EPA’s Policy Limits Committee Terms to 6 Years
            Title 41 CFR Section 102-3.130(a), regarding policies that apply to the
            appointment and compensation or reimbursement of advisory committee
            members, staff, experts and consultants, states that:

                   Unless otherwise provided by statue, Presidential directive, or
                   other establishment authority, advisory committee members serve
                   at the pleasure of the appointing or inviting authority. Membership
                   terms are at the sole discretion of the appointing or inviting
                   authority.

            As noted in the EPA’s 2003 Federal Advisory Committee Handbook membership
            terms should be no longer than 6 years to provide fresh perspectives on the FAC.
            The Handbook notes the deputy administrator may grant appointments beyond the
            6-year limit if the program office provides adequate justification as to why the
            office cannot find an appropriate replacement. In the case of the CASAC and
            Council, appointments are made by the Administrator, who may grant (and has
            granted) appointments beyond the 6-year limit if the SAB Staff Office provides
            adequate justification for the extension.

            According to the former SAB Staff Office director and staff in the EPA’s
            OFACMO, since 2010 former Administrator Jackson more strictly limited FAC


13-P-0387                                                                                   21
            service to no longer than 6 years. OFACMO noted that Administrator Jackson
            granted some extensions but only in exceptional circumstances based on a
            detailed written justification. The EPA’s 2012 revised Handbook reiterated the
            6-year limit and clarified that members should be appointed for no longer than a
            total of 6 years (typically in 2- or 3-year terms), with an extension limited to
            1-year upon approval of a detailed written justification.

            The EPA applies its term policy only to FAC charter members and not to SGEs
            who serve on panels or subcommittees that supplement the charter FAC. The SAB
            Staff Office director noted that the consultants on the CASAC review panel are
            not voting members. Further, these panels often meet over a period of several
            years. Thus, the time spent in service on one NAAQS review panel could last
            approximately 6 years. The director also noted that the Staff Office’s practice is to
            replace about two-thirds of the members on subsequent panels. In their view,
            subsequent panels benefit from the experience and working knowledge provided
            by having some of the previous panel members serve on the next panel.

The EPA Followed Its Policy on Tenure
            The EPA generally applied its policy of limiting terms of service. We reviewed
            the length of service for all CASAC and Council members who served from FYs
            1998 through 2012. Only three members served more than 6 years (one CASAC
            and two Council committee members). In all three instances written justifications
            were provided for the members’ extended service. These three FAC members’
            length of service ranged from 7 to 10 years. Figure 1 (see next page) shows the
            percentage of CASAC and Council charter members who served more than
            6 years from FYs 1998 through 2012.

Many Members Served More than 6 Years If Service on Review Panels
Were Considered

            The EPA augmented both the CASAC and Council with review panels and
            subcommittees comprised of consultants that provided technical advice on
            important matters under consideration by the FAC. While not voting members of
            the FAC, these consultants could influence the FAC’s advice with their input.
            Therefore, we applied the 6-year term limit to all types of FAC and consultant
            services starting in 1998, including service on chartered FACs, subcommittees
            and review panels. If time served as a charter FAC member and review panel
            consultant or subcommittee member were combined, the percentage of experts
            exceeding 6-year terms is greater than the percentage for charter members only.

            During FYs 1998 through 2012, the CASAC had 74 members either serve as one
            of the seven chartered FAC members or as an expert consultant on a NAAQS
            review panel. When this combined service is considered, 27 of 74 members (or
            36 percent of CASAC members) served more than 6 years. Of the 27 CASAC
            members/consultants who served more than 6 years, the years of service as a


13-P-0387                                                                                     22
            member and/or consultant ranged from 7 years (12 members/consultants) to
            15 years (one member/consultant).

            During FYs 1998 through 2012, the Council had 67 members serving either
            directly on the FAC, on a related subcommittee, or as a consultant. When this
            combined service is considered, eight members (or 12 percent of Council
            members) served more than the 6 years. Of the eight members who served more
            than 6 years, the years of service ranged from 7 years (six members) to 10 years
            (one member). Figure 1 shows the percentage of all CASAC- and Council-related
            members with length of service of more than 6 years.

            Figure 1: Percentage of CASAC and Council members serving more than 6 years,
            FY 1998-FY 2012.




               40%

               35%

               30%

               25%

               20%

               15%

               10%

                5%

                0%
                         Chartered        Chartered         Chartered      Chartered 
                          CASAC            Council           CASAC +       Council + 
                                                           Consultants    Consultants


            Source: OIG analysis of CASAC and Council membership lists.


Conclusions
            Neither the FACA nor its implementing regulations prescribe membership term
            limits for FAC members. However, the EPA has established a policy on
            membership terms to help provide fresh perspectives on FACs. The EPA’s policy
            applies only to charter FAC members and not expert consultants who serve on
            review panels or members selected to serve on subcommittees. In particular, the
            CASAC review panelists provide significant input regarding the EPA’s criteria



13-P-0387                                                                                  23
            and standards for ambient air quality. Our analysis indicated the SAB Staff Office
            was achieving its goal of about two-thirds turnover on its NAAQS review panels.
            This turnover ratio is intended to balance the need for fresh perspectives versus
            maintaining continuity and experience.




13-P-0387                                                                                   24
                                  Chapter 5

                            Committee Balance
            In general, we found that the CASAC and Council were balanced with respect to
            the primary functions of the FACs and the required scientific “points of view.”
            The FACA and its implementing regulations require FACs to be fairly balanced
            but allow agencies discretion in how they achieve balance. The EPA’s guidance
            instructs DFOs to describe the agency’s plan to attain fairly balanced membership
            for their FACs and to prepare membership grids showing proposed members’
            qualifications and background. The SAB Staff Office prepared membership grids
            for the CASAC and Council. The Staff Office also described the factors that it
            considered for selecting members in Federal Register notices announcing
            opportunities for the public to nominate members. SAB Staff Office management
            and staff told us that their primary concern in achieving balance for the CASAC
            and Council was ensuring that the members have the necessary range of technical
            expertise. With the EPA’s release of its updated FAC Handbook in March 2012,
            the EPA added steps to its FAC membership selection process to help achieve
            FAC balance. In our view, this new process will provide additional assurance that
            balance is achieved on these FACs.

FACs Should Be Fairly Balanced in Terms of Viewpoints Represented
and Functions Performed

            FACA requires that the membership of FACs be “fairly balanced in terms of the
            points of view represented and the functions to be performed by the advisory
            committee.” In the preamble to the 2001 FACA Final Rule, the GSA stated it
            believed FACA’s provisions were broad enough to allow agency discretion in
            achieving membership balance. However, the rule included a list of possible
            considerations for agencies in developing a plan for achieving balance. These
            include the:

                Committee’s mission.
                Geographic, ethnic, social, economic or scientific impact of the
                  committee’s recommendations.
                Specific perspectives required, such as those of consumers, technical
                  experts, the public at-large, academia, business or other sectors.
                Need to obtain divergent points of view on the issues before the
                  committee.
                Relevance of state, local and tribal governments to the development of the
                  advisory committee’s recommendations.

            Title 41 CFR Part 102-3.60 requires agencies to describe their plans for achieving
            balance on discretionary FACs. These plans are not required for non-discretionary



13-P-0387                                                                                  25
                FACs such as the CASAC and Council. However, GSA guidance9 issued in 2011
                “strongly recommended” these plans for non-discretionary FACs as well.

                The EPA’s FAC Handbook (prior and current versions) incorporates FACA
                requirements on balance and describes the EPA’s procedures for ensuring this
                requirement is met. The EPA’s Handbook requires that the justification
                statements that accompany a request to charter or renew a charter for both
                discretionary and non-discretionary FACs describe plans for achieving balance.
                The Handbook lists general guidelines to consider in achieving balance. The 2012
                updated FAC Handbook incorporated an additional consideration for members
                with experience with issues of concern to low-income, rural, urban, medically
                underserved, sensitive/vulnerable, or disproportionately impacted community
                populations, and whether that experience would be useful.

                The membership grid is a key tool prepared by the EPA as part of the annual
                membership process. The EPA uses the membership grid to review and ensure
                balance. For each FAC, the DFO must create a membership grid that provides a
                snapshot of the FAC makeup, including both current members and proposed
                candidates for membership. The membership grid is part of the overall
                membership package, which is submitted to the Administrator for approval.

                Both the CASAC and Council are statutorily mandated FACs with specific
                membership requirements mandated by the CAA. The CASAC’s seven members
                must include at least one physician, one member of the National Academy of
                Sciences, and one person representing state air pollution control agencies. The
                Council must have at least nine members and include recognized experts in the
                fields of health and the environmental effects of air pollution, economic analysis,
                environmental sciences and such other fields the Administrator deems
                appropriate.

Preparation of Balance Plans Could Provide More Transparency to
Efforts to Achieve Balanced CASAC and Council Committees

                In general, we found the CASAC and Council were balanced with respect to the
                primary functions of the FACs and the required scientific “points of view.”
                We noted that prior to 2011, the justification packages for these FACs did not
                describe the plan for attaining balanced membership. However, in Federal
                Register notices announcing opportunities for the public to nominate members for
                service on the Council and CASAC, the SAB Staff Office described factors it
                considers when selecting FAC members. These factors included relevant
                scientific perspectives, which, among other factors can be influenced by work
                history and affiliation.10 As part of the annual membership process, the SAB Staff

9
   FAC Membership Balance Plan, GSA Committee Management Secretariat, Office of Committee and Regulatory 

Management, January 2011.

10
   See e.g., 69 Fed. Reg. 33,900-01 (June 17, 2004). 



13-P-0387                                                                                               26
            Office prepared membership grids for the CASAC and Council which
            summarized the proposed FAC membership in terms of members’ expertise,
            affiliation category (e.g., academic, state, private sector, nongovernmental
            organization), and geographic location (state). The SAB Staff Office used a
            similar process in forming panels that work under the auspices of the chartered
            FACs.

            SAB Staff Office DFOs told us they address balance from the standpoint of
            scientific and technical expertise. If a potential or current member were to express
            a public opinion on matters before the FAC, this might create an appearance of a
            lack of impartiality. One DFO told us the SAB Staff Office would address such a
            concern specifically with that individual, not by balancing the panel with an
            opposing point of view.

New Agency Procedures Designed to Improve Diversity and Balance

            In March 2012, the EPA updated its FAC Management Handbook and
            incorporated new procedures for achieving diversity and balance on the EPA’s
            FACs. The updated Handbook:

               	 Added a consideration for whether members with experience with issues
                   of concern to low-income, rural, urban, medically underserved,
                   sensitive/vulnerable populations, or communities experiencing
                   disproportionate environmental or public health burdens, could be useful
                   on the FAC.

               	 Requires an outreach plan for obtaining a diverse pool of nominees.
                   The plan must be submitted to the EPA’s OFACMO for review and
                   concurrence. The outreach plan should describe in detail how the DFO
                   intends to solicit a diverse set of nominees, including women and
                   minorities. For example, it should explain the specific forms of public
                   solicitation the DFO plans to use and the organizations and academic
                   institutions the DFO plans to contact.

            The SAB Staff Office developed an outreach plan for the April 2012 CASAC
            charter renewal. Further, the SAB Staff Office developed a draft outreach plan for
            the April 2013 Council charter renewal. The balance plan for CASAC and the
            Council, prepared to support charter renewal, describes the plan for ensuring that
            the committees are balanced in terms of scientific points of view (including
            statutory requirements for membership). The Outreach Plan, developed to support
            the annual membership process, is designed to ensure that membership
            recommendations draw upon a “diverse set of nominees, including women and
            minorities.” While there is overlap between the goals of diversity and balance,
            they are not synonymous.




13-P-0387                                                                                     27
Conclusions

            Agencies have discretion in determining how balance is achieved on their FACs.
            In requiring descriptions of plans to achieve balance for non-discretionary FACs,
            the EPA has established procedures for balance that go beyond the minimum
            requirements established by the regulations. Preparing membership balance plans
            and implementing outreach plans as described in the EPA’s updated FAC
            Handbook should make the selection process more transparent and help ensure
            that balance is achieved on the CASAC and Council.




13-P-0387                                                                                  28
                                   Chapter 6

                                   Peer Review
            In addition to assessing the EPA’s management of CASAC and the Council, we
            reviewed the EPA’s conformity with OMB and the EPA’s peer review policies
            and guidance with respect to three National Center for Environmental Assessment
            analyses supporting NAAQS revisions. All three analyses were conducted in
            conjunction with and included in larger assessment documents that synthesized
            numerous studies and analyses. These assessment documents underwent formal
            peer review by the CASAC. The requester questioned whether CASAC review of
            assessment documents sufficed for the rigor and specificity of a separate peer
            review of each individual analysis.

            We determined that two of the three analyses were sufficiently peer reviewed
            before the EPA publicly disseminated them by placing them in the rulemaking
            docket. However, one of the NCEA analyses containing influential scientific
            information—a re-analysis of data from an ozone health effects study—was not
            peer-reviewed in accordance with OMB and the EPA’s guidance. OMB and the
            EPA’s guidance call for all ISI to be peer reviewed before public dissemination.
            However, NCEA did not have a formal process for determining whether
            individual analyses and work products met the definition of ISI. Thus, NCEA did
            not subject its ozone data re-analysis to peer review before disseminating it in
            support of the ozone NAAQS. The analysis was later peer reviewed and published
            in a journal article. This peer review did not alter the conclusions of the analysis
            as presented in the EPA documents. Thus, the lack of peer review prior to public
            dissemination did not appear to affect the ozone NAAQS rulemaking.
            Nonetheless, proper peer review of the EPA’s internal analyses before
            dissemination to the public is an important tool for ensuring the quality and
            integrity of the agency’s scientific information.

Federal and Agency Guidance Require Peer Review of Influential
Scientific Information Before Public Dissemination
            Peer review involves the review of a draft product for quality by specialists in the
            field who were not involved in producing the draft. OMB’s Final Information
            Quality Bulletin for Peer Review establishes government-wide guidance for
            peer review of government science documents. The OMB bulletin requires each
            agency to subject ISI to peer review prior to dissemination. It defines ISI as
            “scientific information the agency reasonably can determine will have or does
            have a clear and substantial impact on important public policies or private sector
            decisions.” The OMB bulletin provides agencies broad discretion in
            determining the type of peer review and the procedures used to select reviewers.




13-P-0387                                                                                      29
            The EPA’s Peer Review Handbook (3rd Edition) incorporates the provisions of the
            OMB bulletin and outlines the agency’s policy, procedures and processes for peer
            review. Consistent with OMB guidelines, the EPA’s Peer Review Handbook
            states that “[t]he principle underlying the Peer Review Policy is that all influential
            scientific and technical work products used in decision making will be peer
            reviewed” (underlining in original). However, it cites exceptions to this principle.
            One of these exceptions states that peer review is not necessary for ISI if an
            application of an adequately peer reviewed work product does not depart
            significantly from its scientific or technical approach.

            The EPA’s Peer Review Handbook states that, generally, determinations as to
            whether a work product is “influential” will occur on a case-by-case basis. The
            agency decision maker should determine whether a work product is ISI. The
            applicable assistant administrator or regional administrator is the ultimate agency
            decision maker and is accountable for the decisions regarding the identification of
            ISI, and the mechanisms of peer review used for these work products. The
            assistant administrator or regional administrator may designate office directors or
            division directors as the front-line decision maker.

NCEA’s Review of One Analysis Did Not Adhere to OMB Requirements
and EPA Peer Review Guidance for Influential Scientific Information
            We reviewed NCEA’s compliance with OMB and the EPA’s peer review
            guidance for three work products NCEA produced in support of ambient air
            quality standards for ozone, sulfur dioxide and nitrogen dioxide. EPA included
            parts of these three analyses in larger assessment documents that the CASAC peer
            reviewed. These three NCEA work products were:

               1.	 A reanalysis of data from a previously published clinical study on the
                   effects of human exposure to ozone (ozone reanalysis).
               2.	 An analysis of the results of earlier human clinical studies on the effects of
                   human exposure to SO2 (SO2 analysis).
               3.	 An update to a previously published meta-analysis on the effects of human
                   exposure to NO2 (updated NO2 meta-analysis).

            In our view, all three analyses fit the description of ISI. However, NCEA did not
            have its ozone reanalysis peer reviewed before it was disseminated to the public.
            As such, the EPA did not adhere to OMB and EPA peer review guidance for this
            particular analysis. The SO2 analysis was sufficiently peer reviewed. The updated
            NO2 meta-analysis primarily updated and re-presented previously peer reviewed
            information, and thus was not required to be peer reviewed again per the EPA’s
            guidance. Details concerning the development, dissemination and peer review of
            each of the three analyses follow.




13-P-0387                                                                                      30
                2007 Ozone Reanalysis

                In response to a CASAC comment on the second draft of the 2006 ozone air
                quality criteria document, NCEA decided to include the results of a recent human
                exposure study (Adams study)11 in the final air quality criteria document.
                According to NCEA staff, in reviewing the Adams study they observed certain
                traits in the study’s data which caused them to question whether the data would
                show statistically significant effects of ozone exposure at less than 0.08 parts per
                million. In reviewing the final air quality criteria document, one CASAC member
                also questioned whether additional statistical analysis of the data would show
                statistically significant effects at ozone levels below 0.08 ppm. These
                observations led NCEA to re-analyze the Adams study data using a different
                statistical approach. NCEA concluded that there was a statistically significant
                effect of ozone at 0.06 ppm as compared to filtered clean air (0.00 ppm). NCEA
                placed the results of its reanalysis12 in the ozone rulemaking docket in June 2007
                without having it peer reviewed.

                NCEA’s 2007 ozone reanalysis met the definition of ISI. The Adams study was
                the first such study to present human exposure data at ozone levels below
                0.08 ppm. At that time, the level of the ozone standard was 0.08 ppm averaged
                over 8 hours. NCEA’s reanalysis concluded that ozone effects occurred at levels
                below 0.08 ppm. Thus, NCEA reasonably could determine that its reanalysis
                would have an impact on the 2008 NAAQS ozone rulemaking process.

                At a technical conference in December 2006, NCEA made a presentation on the
                health effects of exposure to air pollutants. This presentation included NCEA’s
                initial ozone analysis illustrating the distribution of effects for individuals and
                group mean estimates at levels below 0.08 ppm. In January 2007, NCEA staff
                discussed the ozone reanalysis with the EPA’s OAQPS. OAQPS asked NCEA if it
                could include the ozone reanalysis in the OAQPS staff paper for the 2008 NAAQS
                ozone rulemaking. However, NCEA did not want to do so at that time because staff
                believed it might constitute new analysis that had not been peer reviewed. Thus,
                OAQPS only presented NCEA’s general observations about the Adams study in the
                staff paper and not the detailed statistical analysis. NCEA had the reanalysis
                internally reviewed by EPA scientists and addressed public comments received at a
                March 2007 CASAC meeting. In NCEA’s view, it was appropriate to include the
                reanalysis after these internal reviews. Thus, they entered the reanalysis into the
                rulemaking docket in June 2007.




11
    Dr. William Adams, Comparison of Chamber 6.6-h Exposures to 0.04–0.08 PPM Ozone via Square-wave and 

Triangular Profiles on Pulmonary Responses, Inhalation Toxicology, February 2006.
 
12
    Dr. James Brown, The effects of ozone on lung function at 0.06 ppm in healthy adults, EPA memorandum,

June 14, 2007.
 


13-P-0387                                                                                                    31
                 NCEA’s 2007 ozone reanalysis was published in an August 2008 peer reviewed
                 journal article.13 However, this peer review was after NCEA disseminated its
                 reanalysis in the June 2007 memorandum.

                 2008 SO2 Analysis

                 In 2007, in support of the SO2 NAAQS review, NCEA began working on a draft
                 analysis of SO2 human exposure data from studies conducted in the 1980s and
                 1990s. This draft analysis was circulated to CASAC in December 2007, and
                 CASAC encouraged NCEA to proceed with the analysis. NCEA’s SO2 analysis
                 was included in the EPA’s second draft integrated science assessment14 for sulfur
                 oxides in 2008. NCEA concluded that human responses to SO2 concentrations
                 increased as exposures to SO2 increased and that more pronounced effects were
                 observed at lower concentrations among SO2-sensitive asthmatics. As part of the
                 normal NAAQS review process, CASAC peer reviewed the draft integrated
                 science assessments. Prior to submitting the second draft ISA to CASAC for peer
                 review, the EPA formally requested the CASAC to review its analyses of data
                 from human clinical studies. We reviewed the CASAC comments on the SO2
                 analysis and, in our view, this review fulfilled OMB and EPA peer review
                 requirements.

                 After the SO2 NAAQS final rule was issued, NCEA’s SO2 analysis was again
                 peer reviewed and published in a December 2010 journal article.15

                 2008 NO2 Meta-Analysis

                 During a May 1, 2008, CASAC meeting (one of several held for the 5-year review
                 of the nitrogen dioxide NAAQS), NCEA and CASAC discussed a 1992 NO2
                 meta-analysis16 of 19 studies of individuals with asthma included in the 1993
                 criteria document. CASAC recommended that NCEA present this data in the
                 current NO2 ISA. Before including the 1992 meta-analysis in the ISA, NCEA
                 removed one study from the analysis17 and added a recent study that it considered
                 to be of a similar nature to the other studies. NCEA also added a concentration
                 range (i.e., 0.1 ppm) to its presentation that was not included in the original 1992
                 meta-analysis. NCEA’s conclusions on the effects of NO2 exposure were
                 essentially the same in its 2008 update as those from the 1992 meta-analysis.

13
    Dr. James Brown et al., Effects of Exposure to 0.06 ppm Ozone on FEV in Humans: A Secondary Analysis of
Existing Data,” Environmental Health Perspectives, August 2008. 
14
    Integrated Science Assessment for Sulfur Oxides – Health Criteria (Second External Review Draft), Table 3-1 and
related text, May 2008. 
15
    Dr. Douglas Johns et al., Analysis of the concentration-respiratory response among asthmatics following
controlled short-term exposures to sulfur dioxide, Inhalation Toxicology, December 2010. 
16
    Dr. Lawrence J. Folinsbee, Does Nitrogen Dioxide Exposure Increase Airways Responsiveness?, Toxicology and
Industrial Health, Vol. 8, No. 5, 1992. 
17
    According to NCEA, one study in the 1992 meta-analysis was based on a specific exposure while all the others
were based on non-specific exposures. Thus, in NCEA’s view, this one study should not be included in the 2008
analysis. 


13-P-0387                                                                                                       32
                 An NCEA branch chief told us that the updated NO2 meta-analysis was not
                 submitted for publication because the revisions made to the original NO2 meta-
                 analyses were not a new analysis that would merit publication in a journal.
                 Further, she said all of the information about the revisions to the original meta-
                 analysis was included in the ISA so a separate memorandum was not necessary.
                 Both the original 1992 meta-analysis and NCEA’s 2008 update of that meta-
                 analysis were ISI. However, the 2008 updated meta-analysis did not require peer
                 review. The EPA’s Peer Review Handbook notes that peer review is not necessary
                 for ISI if it is an application of an adequately peer reviewed work product that
                 does not depart significantly from its scientific or technical approach. In our view,
                 NCEA’s 2008 update did not depart significantly from the original 1992 meta-
                 analysis. Further, it was an acceptable application of an adequately peer reviewed
                 work product. NCEA essentially re-presented the results of the original meta-
                 analysis. Moreover, the conclusions about the health effects of NO2 exposure did
                 not change. On July 17, 2012, the U.S. Court of Appeals for the District of
                 Columbia upheld the EPA’s final NO2 rule and reached a similar conclusion
                 regarding the 2008 meta-analysis. The court noted that the EPA’s meta-analysis
                 “merely updated” the original Folinsbee meta-analysis.18

NCEA Did Not Have a Process for Determining Whether
Internal Analyses Were Influential Scientific Information
                 According to an NCEA branch chief, NCEA does not have a process for
                 determining whether internal NCEA analyses are “influential” and does not make
                 “influential calls” on such documents. She said NCEA focuses on determining
                 which internal analyses are most relevant to the larger assessment documents that
                 are peer reviewed by CASAC. She said that it would be impossible to have every
                 internal analysis peer reviewed due to time constraints. She also said that NCEA
                 does not ask CASAC to peer review each individual analysis.

                 We reviewed NCEA emails and found no evidence of an NCEA process for
                 determining whether a work product is influential. However, a January 2007
                 email showed that some NCEA staff were concerned about sending the ozone
                 reanalysis to the docket without having the individual analysis peer reviewed.
                 In the email, NCEA staff did not discuss whether the work product was ISI or
                 whether peer review was required to meet OMB and EPA guidance. In our view,
                 the lack of a process to assess whether internal analyses are ISI is a weakness in
                 NCEA’s management controls. This lack of control allowed the 2007 ozone
                 reanalysis to be included without peer review and without clear accountability for
                 the decision to proceed even though internally staff had some concerns.



18
  American Petroleum Inst. v. EPA, 684 F.3d 1342, 1349 (D.C. Cir. 2012), rehearing en banc denied (D.C. Cir.
Sept. 24, 2012), cert. denied, 133 S. Ct. 1724 (April 2013).


13-P-0387                                                                                                      33
Subsequent Peer Review Did Not Alter Overall Conclusions of
NCEA’s Ozone Reanalysis
            The ozone reanalysis was published in a peer reviewed journal article after the
            EPA publicly disseminated it. However, the peer review did not result in
            significant changes to the journal manuscript. Many of the peer review comments
            for the ozone reanalysis were editorial and required only small revisions to the
            text. One peer reviewer commented that the authors (including two NCEA staff
            members) could have more clearly described their analysis and suggested that the
            authors include a more rigorous defense of their analytical strategy. The authors
            cited text that described and defended the analysis, and did not significantly
            change the manuscript. The external peer reviewers’ comments did not materially
            alter NCEA’s original results or conclusions as they were presented in the EPA’s
            documents supporting the revised NAAQS for ozone.

Conclusions
            NCEA did not have a process to determine whether internal analyses were ISI and
            to document its decision regarding the need for peer review. Such a process would
            provide accountability for decisions about the need for peer review and help
            assure that NCEA complies with OMB and EPA peer review guidance. In the
            absence of a formal process to determine whether a work product is influential,
            NCEA is at risk of including ISI in broader assessment documents for public
            dissemination without the requisite peer review.

Recommendation
            We recommend that the assistant administrator for the Office of Research and
            Development:

               5. 	 Direct NCEA to implement a process to review NCEA scientific analyses
                    that support the EPA’s rulemakings and determine the appropriate type of
                    peer review for these work products. This process should:

                       a.	 Determine and document whether such analyses are influential
                           scientific information.

                       b.	 Document the rationale for the type of peer review chosen for ISI,
                           including any decision not to have such analyses externally peer
                           reviewed before they are publicly disseminated.

Agency Comments and OIG Evaluation
            The agency agreed with our recommendation and provided a corrective action plan
            that meets the intent of the recommendation. The recommendation is resolved and
            open pending the agency’s completion of the agreed-to corrective action.


13-P-0387                                                                                   34
                                   Status of Recommendations and
                                     Potential Monetary Benefits
                                                                                                                                 POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed-To
    No.      No.                          Subject                            Status1        Action Official            Date      Amount      Amount

     1       10      Instruct DEOs and assistant DEOs on the proper            C          Designated Agency          8/14/13
                     process for handling potential conflicts of interests                  Ethics Official
                     for SGEs, including the process for implementing
                     any applicable steps to remedy the conflicts of
                     interest.

     2       19      Develop procedures to adequately document the             O       Director, Science Advisory    9/30/13
                     resolution of ethical concerns. This should include:                  Board Staff Office
                        a. Preparing written determinations as to why
                           members with independence concerns or
                           the appearance of a lack of impartiality are
                           allowed to serve on FACs, subcommittees
                           and panels, including any steps
                           recommended for mitigating these concerns
                           or appearances.
                        b. Documenting that all recommended steps
                           for mitigating independence concerns, such
                           as recusals from certain meetings, are
                           implemented.

     3       20      Periodically review the SAB Staff Office’s                O          Designated Agency          9/30/13
                     resolution of independence concerns and                                Ethics Official
                     appearances of a lack of impartiality, including the
                     sufficiency of recordkeeping documentation, and
                     recommend corrective actions to the SAB Staff
                     Office as appropriate.

     4       20      Develop a framework to guide decisions regarding          O       Director, Science Advisory    12/31/14
                     public pronouncements made by current or                              Board Staff Office
                     prospective FAC members related to topics under
                     consideration by the FAC.

     5       34      Direct NCEA to implement a process to review              O        Assistant Administrator,     9/30/13
                     NCEA scientific analyses that support the EPA’s                    Office of Research and
                     rulemakings and determine the appropriate type                          Development
                     of peer review for these work products. This
                     process should:
                        a. Determine and document whether such
                           analyses are influential scientific
                           information.
                        b. Document the rationale for the type of peer
                           review chosen for ISI, including any
                           decision not to have such analyses
                           externally peer reviewed before they are
                           publicly disseminated.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0387                                                                                                                                          35
                                                                                Appendix A

                    EPA Response to Draft Report


                                        July 22, 2013

MEMORANDUM

SUBJECT:	 Response to Office of Inspector General Draft Report No. OPE-FY12-0001
          Response to Congressional Request on the EPA’s Management of Clean Air
          Federal Advisory Committees, dated June 17, 2013

FROM: 	      Lek G. Kadeli, Principal Deputy Assistant Administrator
             Office of Research and Development (ORD)

             Brenda Mallory, Acting General Counsel 

             Office of General Counsel (OGC) 


             Christopher Zarba, Acting Director      

             Science Advisory Board (SAB) Staff Office 


TO: 	        Arthur A. Elkins, Jr., Inspector General
             Office of Inspector General (OIG)

Thank you for the opportunity to respond to the OIG draft report titled, Response to 

Congressional Request on the EPA’s Management of Clean Air Federal Advisory 

Committees. We have provided a summary of the agency’s overall position and our response 

to the OIG’s recommendations. For the one recommendation with which the agency does not 

agree, we have provided the legal basis and a proposed alternative to the given

recommendation. For your consideration, we have included our technical comments as 

attachments to supplement this response. 


AGENCY’S OVERALL POSITION
The EPA appreciates the opportunity to comment on this report and in general agrees with 

the OIG’s recommendations. For findings and recommendations related to the Office of 

General Counsel, we have provided clarifying information about the identity and parameters 

of the position that oversees the agency’s ethics program. 





13-P-0387                                                                                  36
AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

Agreements

 No.     Recommendation                               High-Level Intended Corrective                  Estimated
                                                      Action(s)                                       Completion
                                                                                                      by- Quarter
                                                                                                      and FY
1        Designated Agency Ethics                     DAEO will review reference
         Official (DAEO)i to instruct                 material already available from
         deputy ethics officials and                  OGC/Ethics and the Office of
         assistant deputy ethics officials            Government Ethics to ascertain
         on the proper process for                    whether any additional SGE-
         handling potential conflicts of              specific guidance is necessary or                 4th Quarter
         interest for SGEs, including the             warranted. OGC notes, however,                     FY 2013
         process for implementing any                 that conflicts issues are necessarily
         applicable steps to mitigate the             fact-specific, so it may not be
         conflicts of interest.                       possible or prudent to issue blanket
                                                      guidance.19

2        Develop procedures to sufficiently           a) To enhance documentation of
                                                         decisions on potential conflict of
         document the resolution of ethical              interest (COI) of experts serving
         concerns. This should include:                  on FACs, subcommittees and
            a) Preparing written                         panels, the SAB Staff Office
               determinations as to why                  will document the nature of the              4th Quarter
               members with                              issue and any remedies (e.g.,                FY 2013
               independence concerns or                  divestiture, partial recusal)
                                                         applied. If there is an issue of
               the appearance of a lack                  appearance of loss of
               of impartiality are allowed               impartiality but no statutory
               to serve on FACs,                         COI under 18 USC 208, the
               subcommittees and                         SAB Staff Office will document
               panels, including any                     any decision to authorize
               steps recommended for                     participation.
               mitigating concerns or
               appearances.                           b) The SAB Staff Office will
            b) Documenting that all                      develop a standard opening
                                                         statement for Designated
               recommended steps for
                                                         Federal Officers to use at the
               mitigating independence                   beginning of all public                      4th Quarter
               concerns, such as recusals                meetings. The statement would                FY 2013
               from certain meetings, are                note that all participating
               implemented.                              committee members/panelists
                                                         are in compliance with ethics

19
  Subsequent to this action plan, the Senior Counsel for Ethics and Alternate Agency Ethics Official clarified the
response to Recommendation 1 to note that she had already advised the SAB Director and selected staff about the
proper process for handling conflicts of interest, and would instruct ethics officials across the Agency in her monthly
meetings on August 13 and 14, 2013.



13-P-0387                                                                                                           37
No.    Recommendation                        High-Level Intended Corrective         Estimated
                                             Action(s)                              Completion
                                                                                    by- Quarter
                                                                                    and FY
                                                requirements and note any
                                                recusals for the record. The
                                                SAB Staff Office will ensure
                                                that meeting minutes accurately
                                                reflect these opening statements.
3     Designated Agency Ethics               Pursuant to 5 CFR § 2638.203, the
                                             DAEO is responsible for managing
      Official (see endnote) to              EPA’s ethics program, including
      periodically review the SAB Staff      ensuring that financial disclosure
      Office’s resolution of                 reports are consistently reviewed
      independence concerns and              and that records are kept, when
                                             appropriate, on advice rendered.
      appearances of a lack of                                                      4th Quarter
      impartiality, including the            OGC/Ethics has been working in         FY 2013
      sufficiency of recordkeeping           closer coordination with the new
                                             SAB Acting Director and staff on
      documentation, and recommend
                                             an as-needed basis to ensure proper
      corrective actions to the SAB Staff    resolution of concerns, including
      Office as appropriate.                 additional consultation and
                                             instruction. The DAEO will
                                             ascertain whether any additional
                                             review beyond what is already
                                             occurring is warranted.
5     Direct NCEA to implement a             The Agency is in the process of
      process for reviewing NCEA             revising the Peer Review
      scientific analyses that support       Handbook. The new edition of the
      the EPA’s rulemakings to               Handbook will emphasize the
                                             planning process and include
      determine the appropriate type of
                                             procedures for creating a record-of-
      peer review for these work             decision for the classification of a
      products. This process should:         work product and the type of peer
                                             review planned for a work product.
      a) Determine and document              The National Center for
         whether such analyses are           Environmental Assessment
         influential scientific              (NCEA), within the Office of           4th Quarter
         information.                        Research and Development, is in        FY 2013
             
                                             the process of addressing this
                                             recommendation by establishing a
      b) Document the rationale for          policy that includes the following
         the type of peer review             steps.
         chosen for ISI, including any
         decision not to have such          a) NCEA work products will be
         analyses externally peer              evaluated to determine whether
         reviewed before they are              they are ISI, in accordance with
         publicly disseminated.                EPA’s Peer Review Handbook,
                                               and the Division Director will
                                               document his or her


13-P-0387                                                                                         38
 No.   Recommendation                        High-Level Intended Corrective           Estimated
                                             Action(s)                                Completion
                                                                                      by- Quarter
                                                                                      and FY
                                                determination.

                                            b) NCEA will conduct a peer
                                               review for any work product that
                                               is determined to be ISI, in
                                               accordance with EPA’s Peer
                                               Review Handbook, and NCEA
                                               will document the rationale for
                                               the type of peer review
                                               conducted.

Disagreement

OIG Recommendation No. 4:

Designated Agency Ethics Official (see Endnote 1) to provide clarification or instruction to
Deputy Ethics Officials for assessing whether public statements create an appearance of a lack of
impartiality with respect to when the statements were made and the expert’s role at the time of
the statement.

Agency’s Response:

 Pursuant to 5 CFR § 2638.203, the DAEO is responsible for managing the Agency’s ethics
 program, including ensuring that EPA employees adhere to the conflict of interest statutes set
 forth in Title 18 of the United States Code and to the Standards of Ethical Conduct for
 Employees of the Executive Branch, 5 CFR Part 2635. The Standards of Ethical Conduct
 include, at 5 CFR Part 2635, Subpart E, specific provisions for “Impartiality in Performing
 Official Duties.”

 The OIG recommendation falls outside the purview of federal ethics. These regulations set forth
 the standard that an employee is responsible, in the first instance, for identifying whether any of
 his “covered relationships” will cause a reasonable person with knowledge of the relevant facts
 to question his ability to carry out his official duties with respect to a specific party matter
 impartially. Typically, the SAB does not deal with “specific party” matters but rather with
 matters of general applicability. Further, a public statement does not fall within the “covered
 relationships” set forth at 5 CFR 2635.502, and therefore OGC ethics is not the responsible
 party overseeing these decisions.

 From a policy perspective, however, when an individual has made public statements about a
 matter that will be considered by the advisory panel that may raise a concern about whether the
 individual has an open mind. The agency’s current Peer Review Handbook recommends that
 staff avoid selecting people for a peer review if they have publicly expressed an opinion on the
 matter to be considered by the peer review The Handbook also acknowledges the challenge of
 selecting advisory committee members who have the requisite experience or technical expertise
 and who have not made public statements. For this reason, the Handbook allows EPA the
 discretion to decide to include members who have made public statements.



13-P-0387                                                                                         39
Alternative to Given Recommendation:

The SAB Staff Office will develop a framework to guide decisions regarding public statements.

Estimated Completion by Quarter and FY:


1st Quarter FY 2014

CONTACT INFORMATION
If you have any questions for OGC, please contact Justina Fugh, Senior Counsel for Ethics and
Alternate Designated Agency Ethics Official at (202) 564-1786, or Daniel Fort, Ethics Officer,
at (202) 202-564-2200. For questions regarding the SAB Staff Office component of this
response, please contact Christopher Zarba, Acting Director at (202) 564-0760 or Angela
Nugent, Special Assistant, Science Advisory Board Staff Office at (202) 564-2218. Finally, for
questions to the EPA’s Office of Research and Development, please contact Deborah
Heckman at (202) 564-7274 or John Vandenberg at (919) 541-4527.

Attachments
      A. Technical Comments from the Office of Federal Advisory Committee Management
         and Outreach
      B. Technical Comments from the SAB Staff Office
      C. Technical Comments from the ORD




13-P-0387                                                                                        40
                                        ENDNOTE


      1
         Please note that the General Counsel, a Presidentially appointed/Senate confirmed
      position, has neither a statutory nor regulatory role in EPA’s ethics program.
      OGC/Ethics therefore assumes that the OIG intended to identify the Designated Agency
      Ethics Official as the correct action official. Brenda Mallory was designated by the
      Administrator pursuant to 5 CFR 2638.202(b) and (c) when she became the Principal
      Deputy General Counsel. Although Ms. Mallory is also currently acting as the General
      Counsel, the acting position does not imbue her with her authority to oversee EPA’s
      ethics program. Rather, that authority derives from her appointment as the Designated
      Agency Ethics Official (DAEO).




13-P-0387                                                                                    41
                                                                                 Appendix B

                                      Distribution
    Office of the Administrator
    Principal Deputy Assistant Administrator for Research and Development
    General Counsel
    Director, Science Advisory Board Staff Office
    Agency Follow-Up Official (the CFO)
    Agency Follow-Up Coordinator
    Associate Administrator for Congressional and Intergovernmental Relations
    Associate Administrator for External Affairs and Environmental Education
    Deputy Assistant Administrator for Science, Office of Research and Development
    Director, Office of Science Policy, Office of Research and Development
    Principal Deputy General Counsel
    Audit Follow-Up Coordinator, Office of Research and Development
    Audit Follow-Up Coordinator, Office of General Counsel




 




13-P-0387                                                                                42
